Report No. D-2011-026                   December 21, 2010




    American Recovery and Reinvestment Act Project to
    Design and Construct a Child Development Center at
                  Fort Carson, Colorado
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DR IVE
                              ARLINGTON, VIRGI NIA 22202- 4704



                                                                         December 21,2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)I
                 CHIEF FINANCIAL OFFICER
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: American Recovery and Reinvestment Act Project to Design and ConstlUct
         a Child Development Center at Fort Carson, Colorado
         (Report No . D-20 11-026)

The DoD Office of Inspector General is performing audits of DoD's implementation of Public
Law 111-5, "American Recovery and Reinvestment Act of2009," February 17,2009 (Recovery
Act). We selected one Fort Carson Recovery Act project to review (see Audit Methodology
section).

We reviewed project 62832, to conshuct a child development center with capacity for 232
children, age 6 weeks through 5 years. The DD 1391, "Military ConstlUction Project Data,"
states that the facility will provide a consistent, safe, and nurturing environment; with age-
appropriate indoor and outdoor activity spaces that meet DoD certification and National
Accreditation standards. The U.S. Army Corps of Engineers Omaha District (US ACE Omaha),
provided contract and project management services to the Fort Carson Garrison. US ACE
received $12.5 million in Recovery Act funds for this project.

Our objective in reviewing the project was to determine whether:

   •   it was adequately planned to ensure the appropriate use of Recovery Act funds
       (Planning);
   •   funds were awarded and distributed in a prompt, fair, and reasonable manner (Funding);
       and
   •   the contract contained required Recovery Act Federal Acquisition Regulation (FAR)
       clauses (Initial Project Execution).

We determined that project 62832 was justified and met the Recovery Act goals regarding
accountability and transparency. Personnel at Fort Carson and USACE Omaha justified,
planned, funded, and contracted for the project in accordance with Recovery Act and Office of
Management and Budget guidance.

PLANNING

We reviewed the DD 1391 and supporting documentation for construction of a standard-design
child development center at Fort Carson, Colorado. The DD 1391 adequately explained the
project justification, requirements, current situation, and impact of constructing the child
development center. Specifically, Fort Carson personnel used a DD 1391 dated March 16, 2009
to justify building a standard-design child development center with capacity for 232 children,
ages 6 weeks through S years, based on projected capacity needs and in accordance with the
Army Standard for Child Development Center construction.

The DoD Office ofInspector General is assessing the Army's overall planning of Recovery Act-
funded military construction (MILCON) projects of child development centers (Project
No. D2009-DOOOAE-0268.000, "Recovery Act-Funded Military Construction of Army Child
Development Centers"). In performing this assessment, we considered factors beyond the
DD 1391 justifications, including whether the Army most equitably apportioned Recovery Act
funds to base locations where the need for child care was greatest. We used data projections
through FY 20lS to compare the child care needs of Fort Carson with the needs of the following
six other Army installations receiving Recovery Act funding to build child development centers:
Fort Belvoir, Virginia; Fort Bragg, North Carolina; Fort Drum, New York; Fort Eustis, Virginia;
Hunter Army Airfield, Georgia; and Fort Hood, Texas. We found that while the Army had valid
requirements for using Recovery Act funding to build child development centers at Fort Carson
and the six other installations, the apportionment of resources among the installations needed
improvement.

FUNDING

The DoD expenditure plan for the Recovery Act designated a MILCON project list that included
project 62832, valued at $12.S million. On April 9, 2009, the Office of the Assistant Secretary of
the Army (Financial Management and Comptroller) issued a Funding Authorization Document
(FAD) for $12.S million to the US ACE Commander to fund the project. On September 21,
2009, the USACE Commander issued an FAD for $11 .9 million to USACE Omaha to fund the
project. USACE Omaha awarded an $8.7 million contract for construction ofth,e child
development center and set aside an additional $1 million for contingencies, sup,ervision and
administration, and other expenses associated with managing the project. The remaining
$2.8 million became additional funds for the Army to use for other Recovery Act projects.

Under provisions of the Under Secretary of Defense (Comptroller)/ChiefFinanciial Officer
(USD[Cl/CFO) memorandum, "Project Cost Variations During Execution of American
Recovery and Reinvestment Act Expenditure Plans for Infrastructure Investments," May 7,2009,
the Army can use any additional funding (after project completion) to offset cost growth on the
construction of other Recovery Act-funded child development centers. As ofJanuary 20,2010,
Headquarters US ACE had recognized savings of $11. 7 million fi'om seven Recovery Act-funded
MILCON child development center projects, including the Fort Carson project. The Army
nominated a project to construct an additional child development center using th,e combined
savings. On April 29, 2010, the Army, through the USD(C)/CFO, notified Cong~'ess of its intent
to fund the $9 million construction of a child development center at Fort Polk, Louisiana, using
the combined savings.




                                                2
CONTRACTING

We reviewed the presolicitation and contract award for project 62832 and determined that
US ACE Omaha contracting personnel competed and awarded the contract with full transparency
and that the contract contained the required FAR clauses. On July 1,2009, USACE contracting
personnel posted the presolicitation notice (W9128F-09-R0087) on the Federal Business
Opportunities (FBO) Web site. The language in the presolicitation notice met the intent of the
Recovery Act project. Specifically, the synopsis in the presolicitation notice clearly explained
the nature of the work and informed the public that this was a Historically Underutilized
Business Zone set-aside for small businesses.

USACE Omaha contracting personnel competitively solicited contract offers through an
invitation for bid. On September 28,2009, USACE contracting personnel awarded a firm-fixed-
price contract (W9128F-09-C-0048) to Arviso Construction Company, Inc., for $8.7 million. On
September 29,2009, the USACE contracting office posted the contract award on the FBO Web
site.

REVIEW OF FORT CARSON AND US ACE OMAHA INTERNAL CONTROLS

Fort Carson and USACE Omaha internal controls over the plmming, funding, and contracting for .
the construction of a child development center at Fort Carson were effective as they applied to
the audit objectives.

AUDIT STANDARDS

We conducted this audit from October 2009 through December 2009, and from May 2010
tlu'ough November 2010 in accordance with generally accepted government standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our conclusions based on our audit objectives.

AUDIT METHODOLOGY

We visited Fort Carson and contacted USACE Omaha, to review one MILCON project. We
interviewed Department of Public Works and childcare program personnel at Fort Carson and
engineering and contracting personnel at USACE Omaha. We reviewed requirements,
contracting, and financial documentation from both Fort Carson and USACE Omaha, dated from
September 2004 to September 2009. We used this supporting documentation to determine
whether Fort Carson and US ACE personnel properly planned, funded, and contracted for the
project in accordance with the Recovery Act and Office of Management and Budlget guidance.

Before selecting DoD Recovery Act projects for audit, the Quantitative Methods and Analysis
Division of the DoD Office ofInspector General analyzed all DoD agency-funded projects,
locations, and contracting oversight organizations to assess the risk of waste, fraud, and abuse
associated with each. We selected most audit projects and locations using a modified Delphi
technique, which allowed us to quantify the risk based on expert auditor judgment, and other


                                                 3
quantitatively developed risk indicators. We used information collected from all projects to
update and improve the risk assessment model. We selected 83 projects with the highest risk
rankings; auditors chose some additional projects at the selected locations.

We did not use classical statistical sampling teclmiques that would permit generalizing results to
the total population because there were too many potential variables with unknown parameters at
the begilming of this analysis. The predictive analytic teclmiques employed provided a basis for
logical coverage not only of Recovery Act dollars being expended, but also of types of projects
and types oflocations across the Military Services, Defense agencies, State National Guard units,
and public works projects managed by U.S. Army Corps of Engineers.

USE OF COMPUTER-PROCESSED DATA

We used computer-processed data to perform this audit. Specifically, we used posted notices on
the FBO Web site (http://www.fho.gov) in meeting our audit objectives. We tested the accuracy
of the data by comparing the project data reported on the FBO Web site with documents in the
contract file. Our audit focused on the reporting of contract actions on specific Army projects.
From these procedures, we concluded that the DOD data were sufficiently reliable for our audit
purposes.

PRIOR AUDIT COVERAGE

The Government Accountability Office, the Department of Defense Inspector General, and
the Military Departments have issued reports and memoranda discussing DoD projects
funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.

Our review of Project 62832 will be included in a summary report to be issued later. We
appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-9201
(DSN 664--920 I). If you desire, we will provide a formal briefing on the results.




                                             Assistant Inspector General
                                             Acquisition and Contract Management




                                                4
